<html>
<title> - STRENGTH THROUGH PARTNERSHIP: BUILDING THE U.S.-TAIWAN RELATIONSHIP</title>
<body><pre>[Senate Hearing 117-66]
[From the U.S. Government Publishing Office]





                                                         S. Hrg. 117-66
 
                      STRENGTH THROUGH PARTNERSHIP:
                 BUILDING THE U.S.-TAIWAN RELATIONSHIP

=======================================================================

                                HEARING


                               BEFORE THE

                       SUBCOMMITTEE ON EAST ASIA,
                     THE PACIFIC, AND INTERNATIONAL
                          CYBERSECURITY POLICY

                                 OF THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE


                    ONE HUNDRED SEVENTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              JUNE 17, 2021

                               __________



       Printed for the use of the Committee on Foreign Relations
       
       
       
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

       


             Available via http://www.govinfo.gov                  
                  
                  
                           ______                       


             U.S. GOVERNMENT PUBLISHING OFFICE 
45-484 PDF           WASHINGTON : 2021 
                   


                 COMMITTEE ON FOREIGN RELATIONS        

             ROBERT MENENDEZ, New Jersey, Chairman        
BENJAMIN L. CARDIN, Maryland         JAMES E. RISCH, Idaho
JEANNE SHAHEEN, New Hampshire        MARCO RUBIO, Florida
CHRISTOPHER A. COONS, Delaware       RON JOHNSON, Wisconsin
CHRISTOPHER MURPHY, Connecticut      MITT ROMNEY, Utah
TIM KAINE, Virginia                  ROB PORTMAN, Ohio
EDWARD J. MARKEY, Massachusetts      RAND PAUL, Kentucky
JEFF MERKLEY, Oregon                 TODD YOUNG, Indiana
CORY A. BOOKER, New Jersey           JOHN BARRASSO, Wyoming
BRIAN SCHATZ, Hawaii                 TED CRUZ, Texas
CHRIS VAN HOLLEN, Maryland           MIKE ROUNDS, South Dakota
                                     BILL HAGERTY, Tennessee
                 Jessica Lewis, Staff Director        
        Christopher M. Socha, Republican Staff Director        
                    John Dutton, Chief Clerk        



            SUBCOMMITTEE ON EAST ASIA, THE PACIFIC,        
             AND INTERNATIONAL CYBERSECURITY POLICY        

           EDWARD J. MARKEY, Massachusetts, Chairman        
CHRISTOPHER A. COONS, Delaware       MITT ROMNEY, Utah
CHRISTOPHER MURPHY, Connecticut      TED CRUZ, Texas
BRIAN SCHATZ, Hawaii                 RON JOHNSON, Wisconsin
JEFF MERKLEY, Oregon                 MIKE ROUNDS, South Dakota
                                     BILL HAGERTY, Tennessee

                              (ii)        

  


                         C  O  N  T  E  N  T  S

                              ----------                              
                                                                   Page

Markey, Hon. Edward, U.S. Senator From Massachusetts.............     1

Romney, Hon. Mitt, U.S. Senator From Utah........................     3

Fritz, Jonathan, Deputy Assistant Secretary for China, Mongolia, 
  and Taiwan Coordination, Bureau of East Asian and Pacific 
  Affairs, U.S. Department of State, Washington, DC..............     3
    Prepared Statement...........................................     5

Barks-Ruggles, Hon. Erica, Senior Bureau Official, Bureau of 
  International Organization Affairs, U.S. Department of State, 
  Washington, DC.................................................     7
    Prepared Statement...........................................     8

              Additional Material Submitted for the Record

Responses of Mr. Jonathan Fritz to Questions Submitted by Senator 
  Edward J. Markey...............................................    24

Responses of Mr. Jonathan Fritz to Questions Submitted by Senator 
  Jeff Merkley...................................................    26

                                 (iii)

  


               STRENGTH THROUGH PARTNERSHIP: BUILDING 
                      THE U.S.-TAIWAN RELATIONSHIP

                              ----------                              


                       THURSDAY, JUNE 17, 2021

                           U.S. Senate,    
Subcommittee on East Asia, The Pacific, and
                International Cybersecurity Policy,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:03 a.m. in 
room SD-419, Hon. Edward Markey, chairman of the subcommittee, 
presiding.
    Present: Senators Markey [presiding], Coons, Romney, and 
Hagerty.

           OPENING STATEMENT OF HON. EDWARD MARKEY, 
                U.S. SENATOR FROM MASSACHUSETTS

    Senator Markey. This hearing of the Senate Foreign 
Relations Subcommittee on East Asia, the Pacific, and 
International Cybersecurity Policy, will come to order.
    It is a pleasure to chair our second sole hearing of the 
East Asia Subcommittee on ``Strength Through Partnership 
Building: The U.S.-Taiwan Relationship.''
    America's bond with Taiwan's vibrant democracy of nearly 24 
million people continues to grow. Taiwan's democracy serves as 
a model in the Indo-Pacific.
    As authoritarianism deepens its hold in the region, Taiwan 
serves as a powerful counter example proving that reports of 
democracy's demise are unfounded.
    That Taiwan continues to flourish just 100 miles away from 
Mainland China is a testament to the enduring strength of its 
people and the strength of the universal values that we share 
with the people of Taiwan.
    The Taiwan Relations Act of 1979, three joint communiques, 
and six assurances have underpinned this fragile peace in the 
Taiwan Strait, insulating Taiwan's democracy and economic 
system from serious interference.
    We have seen elections which have worked to prove democracy 
works in that country, despite widespread Chinese Government 
meddling and attempts to spread disinformation, and it served 
as a referendum on the Chinese Government's long-standing 
efforts to adopt a one country/two systems model for Taiwan.
    As Taiwan was preparing to vote, Beijing had begun to strip 
away the right to vote in Hong Kong, denying its people the 
high degree of autonomy guaranteed by the 1984 Sino-British 
declaration and the Basic Law of Hong Kong.
    In the past year, the Chinese military's incursions across 
the median line and into Taiwan's air defense identification 
zone have increased to their highest level in a generation.
    Beyond the Strait, Beijing has turned to the use of force 
to assert territorial claims on its border with India, and it 
has sought to rewrite maps in the South China Sea, challenging 
the international rules-based system.
    All of these provocative actions towards Taiwan, 
particularly against the backdrop of the PRC's violation of 
their agreements regarding Hong Kong, have contributed to great 
concern about the PRC's future intentions towards Taiwan.
    This hearing offers a chance to discuss ways we can bolster 
Taiwan's defenses to avert armed conflict in the Taiwan Strait.
    This hearing also allows us to examine how the United 
States can better support Taiwan's standing in the world and 
help it build relationships with the international community so 
it can withstand Beijing's efforts to deny it access to 
diplomatic and economic partners overseas.
    We know how China views Taiwan. We should focus our 
attention on how the world views Taiwan as a reliable partner. 
The COVID-19 pandemic is a preview of what the world has to 
gain by giving Taiwan a larger place on the international 
stage.
    Even in the face of a recent uptick in infections, the 
Taiwan model, characterized by early detection, contact 
tracing, and universal acceptance of mask wearing, spared 
Taiwan the worst ravages of the pandemic.
    Just as Taiwan stepped up in providing PPE to our hospitals 
at the height of the pandemic in the United States, we must 
return the favor by expediting the delivery and increase in the 
number of vaccines to our friend and partner, Taiwan.
    Senator Romney and I agree upon this issue. The World 
Health Organization could have been a forum for Taiwan to share 
its remarkable success and best practices with the global 
community.
    Beijing has used the One China policy as a bludgeon to shut 
out Taipei from the World Health Assembly, and Senator Romney 
and I, and other members of this subcommittee, campaigned to 
allow for Taiwan's meaningful participation.
    The Biden administration must use its vote, its voice, and 
influence to unlock the doors of the WHA and other 
international organizations to Taiwan.
    In order to build upon our already strong bilateral 
relationship with Taiwan, we have to literally show up. Towards 
that end, I was proud that Senator Rubio's Taiwan Fellowship 
Act was recently passed by the Senate. The bill will send U.S. 
Government officials to Taiwan to learn, to study, and to work 
for up to 2 years.
    The Indo-Pacific is key to the United States' alliances and 
relationships, home to 60 percent of the world's inhabitants, 
and this legislation will ensure that more of our civil 
servants throughout the United States continue to be able to go 
to that region.
    So with that, I just want to welcome our witnesses. Thank 
you so much for your willingness to be with us today, and turn 
to recognize the ranking member, the senator from Utah.

                STATEMENT OF HON. MITT ROMNEY, 
                     U.S. SENATOR FROM UTAH

    Senator Romney. Thank you, Mr. Chairman. I appreciate your 
convening this hearing on this extraordinarily important topic.
    Thank you also to our witnesses, Mr. Fritz and Ambassador 
Barks-Ruggles. I appreciate the commitment you have to this 
region, to this people, to the interests of the United States 
of America, and your willingness to testify here today and your 
ongoing work.
    I am going to be very brief this morning. The United States 
of America believes that the people of Taiwan should be allowed 
to determine their own destiny. This is an inescapable aspect 
of having respect for the dignity of humankind.
    The Chinese Communist Party, on the other hand, believes 
that it should be free to usurp the will of the people of 
Taiwan.
    Taiwan is not some small outpost. It is comprised, as the 
chairman indicated, of almost 25 million people. It is one of 
the largest 20 global economies and leads the world in a number 
of cutting-edge technologies. It has its own government and its 
own military.
    The Chinese Communist Party attempts to cut it off from 
global association and choke its economy, and it threatens 
invasion by military incursion and incendiary language.
    The question today is how America, a nation that believes 
in the dignity of humanity, can aid the millions of people of 
Taiwan to remain free to make their own decisions, to determine 
their own course, and to raise their children in the way of 
their own choosing.
    Quite simply, it is a matter of believing that the people 
of Taiwan should be free to make their own choice, or whether 
instead the Communist Chinese Party should take that choice 
away from them and oppress them.
    So I look forward to our chance to hear from our witnesses 
and to be able to ask questions on these topics.
    Thank you, Mr. Chairman.
    Senator Markey. Thank you so much, and let me then 
introduce our first witness.
    Our first witness, Mr. Fritz, is the Deputy Assistant 
Secretary of State in the East Asian and Pacific Affairs 
Bureau. Jonathan Fritz is a career member of the Foreign 
Service. He has primary responsibility at the State Department 
for China, Mongolia, and Taiwan.
    Prior to his current post, he was the director for 
bilateral and regional affairs in the State Department's Office 
of International Communications and Information Policy.
    He has previously also been posted to the U.S. Embassy in 
Beijing. Of note, Mr. Fritz also served as an advisor to the 
U.S. Trade Representative.
    Welcome, Mr. Fritz. Whenever you are comfortable, please 
begin.

  STATEMENT OF JONATHAN FRITZ, DEPUTY ASSISTANT SECRETARY FOR 
CHINA, MONGOLIA, AND TAIWAN COORDINATION, BUREAU OF EAST ASIAN 
 AND PACIFIC AFFAIRS, U.S. DEPARTMENT OF STATE, WASHINGTON, DC

    Mr. Fritz. Thank you, Mr. Chairman, Ranking Member, and 
members of the subcommittee, for the opportunity to be here 
today to speak to you about our partnership with Taiwan and our 
efforts to coordinate with like-minded partners to promote 
Taiwan's international space and deter conflict in the Taiwan 
Strait.
    Since the election of President Tsai Ing-wen in 2016, the 
PRC has endeavored to unilaterally alter the status quo in 
cross-strait relations and isolate Taiwan from the 
international community.
    The PRC's increasingly aggressive behavior toward Taiwan 
endangers the very stability that has allowed this region to 
peacefully prosper. Despite President Tsai's determination to 
maintain the status quo across the strait, Beijing has been 
unwilling to engage with her.
    Instead, the PRC has continued to apply military, 
diplomatic, and economic pressure. To counter Beijing's 
attempts to intimidate Taiwan, we will continue to make 
available to it the defense articles and services necessary for 
Taiwan self-defense.
    Consistent with the Taiwan Relations Act and our One China 
policy, the United States has notified more than $32 billion 
worth of arms to Taiwan since 2009. Arms sales alone cannot 
ensure Taiwan's ability to defend itself.
    Our expanding security cooperation encourages Taiwan to 
prioritize capabilities that complicate PRC planning for an 
invasion, including small mobile cost-effective systems like 
coastal defense cruise missiles, as well as reserve force 
reform to strengthen Taiwan society's ability to resist in a 
conflict.
    Beijing has also executed a campaign to entice Taiwan's few 
remaining diplomatic partners to discontinue official ties in 
favor of the PRC. It has pressured countries to deny permission 
for Taiwan representative offices that would conduct unofficial 
relations, and it has continued to pressure U.N. agencies to 
prevent Taiwan from meaningfully participating in their work.
    Strong U.S. support for Taiwan is paramount in light of 
this coercive behavior. Today, Taiwan has just 15 diplomatic 
partners after losing seven since President Tsai's inauguration 
in 2016.
    These partners are important for Taiwan in a variety of 
manners, not least of which is they advocate for Taiwan's 
participation in international organizations.
    Through our diplomatic and commercial engagements, we seek 
to highlight to these countries the benefits of having a 
reliable partner like Taiwan. To support Taiwan's unofficial 
bilateral relationships, U.S. missions throughout the world 
engage with Taiwan's local representatives.
    U.S. leadership and expanding our own engagement with 
Taiwan encourages other governments to do the same. Our newly 
liberalized guidelines for engagement with Taiwan 
representatives were warmly welcomed by Taiwan, probably for 
this very reason.
    Another way we support Taiwan's international space is 
through the Global Cooperation and Training Framework, or GCTF. 
The GCTF, facilitated by the American Institute in Taiwan and 
co-sponsored by allied partners like Japan and Australia, 
provides training and technical assistance to third-country 
participants, demonstrating the value of Taiwan's expertise and 
participation on the global stage.
    Since its inception in 2015, the GCTF has featured dozens 
of workshops that have provided training to over a thousand 
participants. The specifically appropriated $3 million in 
funding to support GCTF for the first time this year will 
significantly expand that program's reach.
    To build Taiwan's resiliency against PRC economic coercion, 
we are deepening trade investment and other economic ties. In 
November of last year, we established the economic prosperity 
partnership dialogue with Taiwan to discuss key economic issues 
such as supply chain security, investment screening, and 
science and technology collaboration.
    Such efforts advance U.S. interests and help diversify 
Taiwan's economy away from over reliance on the PRC. High-level 
visits that advance our substantive interests are another 
important way to show our support.
    In April, President Biden sent an unofficial delegation, 
led by former Senator Chris Dodd, to mark the 42nd anniversary 
of the signing of the Taiwan Relations Act and sent a clear 
signal about the ongoing U.S. commitment to Taiwan and its 
democracy.
    Last week, the Biden/Harris administration announced a plan 
for international vaccine donations, including to Taiwan. We 
were grateful for Senators Duckworth, Sullivan, and Coons 
visiting Taiwan to announce that donation and underscore our 
deep appreciation for Taiwan's assistance to the United States 
in the dark days of the early period of the pandemic. Moving 
forward, we will seek and consider opportunities for more such 
visits.
    Congressional support for Taiwan has been paramount in the 
successful and consistent application and articulation of our 
long-standing One China policy. Moving forward, we will 
continue to rely on your support to achieve shared objectives, 
including through appropriations related to implementing the 
CHIPS Act to secure U.S. supply chains in advanced 
semiconductors.
    Now, I would like to give the floor to my colleague, 
Ambassador Barks-Ruggles, who will further discuss our efforts 
to support Taiwan's meaningful participation in international 
organizations.
    Thank you.
    [The prepared statement of Mr. Fritz follows:]

                Prepared Statement of Mr. Jonathan Fritz

    Mr. Chairman, Ranking Member, Members of the Subcommittee: Thank 
you for the opportunity to be here today. It is my honor to speak with 
you about our partnership with Taiwan and our efforts to coordinate 
with like-minded partners to promote Taiwan's international space and 
deter conflict in the Taiwan Strait.
    Since the election of President Tsai Ing-wen in 2016, the People's 
Republic of China (PRC) has endeavored to unilaterally alter the status 
quo in cross-Strait relations and isolate Taiwan from the international 
community. The PRC's increasing pressure and aggressive behavior toward 
Taiwan endanger the very stability that has allowed the region to 
peacefully prosper.
    Despite President Tsai's determination to maintain the status quo 
across the Taiwan Strait, Beijing has been unwilling to engage with 
her. The PRC has continued to apply military, diplomatic, and economic 
pressure on Taiwan, a democratic partner with whom we share common 
values and a common vision for a prosperous and secure Indo-Pacific 
region.
    To counter Beijing's attempt to intimidate Taiwan and alter the 
status quo, we will continue to make available to Taiwan the defense 
articles and services necessary for Taiwan's self-defense capability, 
consistent with the Taiwan Relations Act and our ``One China'' policy. 
The United States notified more than $32 billion worth of arms to 
Taiwan since 2009, but arms sale alone cannot ensure Taiwan's ability 
to defend itself. Our expanding security cooperation seeks to encourage 
Taiwan to prioritize capabilities that complicate PRC planning for an 
invasion, including small, mobile, cost-effective systems like coastal 
defense cruise missiles and reserve force reform to strengthen Taiwan 
society's ability to resist in a conflict.
    Beijing has also executed a concerted campaign to entice Taiwan's 
few remaining diplomatic partners to discontinue official ties in favor 
of the PRC, has pressured countries to deny permission for new Taiwan 
representative offices that would conduct unofficial relations, and has 
continued to pressure U.N. agencies to prevent Taiwan from meaningfully 
participating in these agencies' work.
    Strong U.S. support for Taiwan's international space is paramount 
in light of this coercive behavior. Today, Taiwan has just 15 
diplomatic partners after losing seven since President Tsai's 
inauguration in 2016. These partners are a crucial source of support 
for Taiwan, and they advocate publicly and privately for Taiwan's 
membership or meaningful participation in international organizations.
    To support Taiwan's unofficial relationships, U.S. missions 
throughout the world engage with Taiwan's local representative offices. 
U.S. leadership in expanding our engagement with Taiwan representatives 
encourages other governments to do the same despite PRC objections. Our 
newly liberalized guidelines for engagement with Taiwan representatives 
were warmly welcomed by our Taiwan counterparts, including 
Representative Bi-khim Hsiao of the Taipei Economic and Cultural 
Representative Office in the United States.
    Facilitated by the American Institute in Taiwan, the United States 
supports Taiwan's international space through the Global Cooperation 
and Training Framework. The GCTF provides training and technical 
assistance to third-country participants, building support for Taiwan 
around the world and demonstrating the value of Taiwan's participation 
on the global stage. Since its inception in 2015, the GCTF has featured 
dozens of workshops that have provided training to over a thousand 
participants. The specifically appropriated $3 million in funding to 
support GCTF for the first time this year will significantly expand the 
program's reach.
    Additionally, the State Department's Office of Global Partnerships 
(GP), in coordination with AIT and TECRO, held three virtual 
Partnership Opportunity Delegations to facilitate exchange between the 
public and private sectors of the United States and Taiwan in Paraguay, 
Eswatini, and St. Lucia.
    To build resiliency in Taiwan against economic coercion from 
Beijing, we are committed to deepening trade, investment, and other 
economic ties with Taiwan. In November 2020, we established the 
Economic Prosperity Partnership Dialogue with Taiwan to discuss key 
economic issues, such as supply chain security, investment screening, 
and science & technology. Such efforts advance U.S. interests and help 
diversify Taiwan's economy away from being overly reliant on the PRC. 
We will continue to strengthen U.S. economic ties with Taiwan as an 
important priority.
    While challenges remain, we will continue deepening our ties with 
Taiwan in the face of PRC efforts to apply pressure on Taiwan and its 
partners. In April, President Biden continued those efforts by sending 
an unofficial delegation of retired U.S. officials to Taiwan, led by 
former Senator Chris Dodd. The delegation marked the 42nd anniversary 
of the signing of the Taiwan Relations Act and sent an important signal 
about the lasting U.S. commitment to Taiwan and its democracy. Last 
week the Biden-Harris administration announced a plan for sharing 
vaccine donations internationally, including with Taiwan. We were 
grateful for Senators Duckworth, Sullivan, and Coons' visit to Taiwan 
to announce our vaccine donation and underscore our appreciation for 
Taiwan's assistance to the United States in the earliest days of the 
pandemic.
    Moving forward, we will seek and consider opportunities for visits 
to Washington and Taipei that advance our unofficial relationship and 
enable substantive exchanges on issues of mutual concern.
    Bipartisan Congressional support for our unofficial relationship 
with Taiwan has been paramount in the successful and consistent 
articulation of our longstanding ``One China'' policy. Moving forward, 
we will rely on Congressional support to facilitate shared objectives, 
including through appropriations related to implementing the CHIPS Act, 
which could help to secure American supply chains in advanced 
semiconductors and diversify Taiwan's production base.
    Now, I would like to give the floor to my colleague, Ambassador 
Barks-Ruggles, who will further explain our efforts to support Taiwan's 
meaningful participation in international organizations.
    Thank you.

    Senator Markey. Thank you so much, and let me give you a 
more formal introduction, Ambassador.
    Ambassador Erica Barks-Ruggles was appointed in January 
this year as Senior Bureau Official for the Bureau of 
International Organization Affairs.
    Prior to her current post, Ambassador Barks-Ruggles was a 
senior diplomatic scholar at the Woodrow Wilson Center and was 
the acting Chancellor of the College of International Strategic 
Affairs at the National Defense University. She also has served 
as the Ambassador from the United States to the Republic of 
Rwanda.
    So we welcome you, Ambassador. Whenever you are ready, 
please begin.

 STATEMENT OF THE HONORABLE ERICA BARKS-RUGGLES, SENIOR BUREAU 
 OFFICIAL, BUREAU OF INTERNATIONAL ORGANIZATION AFFAIRS, U.S. 
              DEPARTMENT OF STATE, WASHINGTON, DC

    Ambassador Barks-Ruggles. Thank you, Mr. Chairman, thank 
you, Ranking Member Romney, and all distinguished members of 
the subcommittee. It is an honor to be here today.
    I am appearing before you as the Senior Bureau Official for 
the Bureau of International Organization Affairs. I am pleased 
that Ambassador Michele Sison, who has been nominated to lead 
the bureau, had her hearing before this committee last month.
    I want to echo my colleague, Jonathan Fritz's, words about 
the importance we place on Taiwan's meaningful participation in 
the U.N. and its related bodies, and share some details about 
my bureau's work on this important issue.
    Taiwan's transparent and democratic management of the 
COVID-19 pandemic is a model for the region and for the world. 
As you know, this virus knows no politics and knows no 
boundary, and we need to ensure that we are hearing from 
everyone with a role to play in the fight against COVID-19, 
especially those that have been, largely, successful in 
protecting their populations from the worst ravages of this 
pandemic.
    At the U.N. Security Council on May 7th, Secretary Blinken 
called for modernization of the coalitions we include in 
diplomacy and development efforts, including forging 
nontraditional partnerships with civil society and the private 
sector.
    It is no coincidence that on the very same day he also 
called on the World Health Organization to allow Taiwan to 
participate as an observer in the World Health Assembly.
    Taiwan's public health experts, who have worked to protect 
the 24-plus million people on the island, are a prime example 
of the key actors with important information to share.
    They deserve a voice in the room in institutions like the 
World Health Organization. Shutting them out of last month's 
World Health Assembly under pressure from the People's Republic 
of China weakened us all.
    I am proud of the work my team did to advocate for Taiwan's 
participation and equally proud of our efforts to work closely 
with partners to address and broaden the coalition of countries 
that share the objective of having Taiwan's voice heard.
    There is, clearly, much more work to be done. In that vein, 
for more than a decade the Bureau of International Organization 
Affairs has convened biannual talks to address these concerns.
    Over time, we have continued to expand the scope and 
breadth of these discussions with Taiwan. I had the honor of 
convening our twice yearly talks with Taiwan virtually on March 
30 of this year.
    Key U.S. Government officials and subject matter experts 
from the Department of State, the Department of Health and 
Human Services, and the American Institute of Taiwan engaged 
with their Taiwan counterparts to build support among like-
minded countries and incorporate more stakeholders in this 
effort.
    It is important to note that these talks included a robust 
discussion of Taiwan's meaningful participation in U.N. 
agencies as well as other international organizations and 
multi-stakeholder initiatives.
    Moving forward, the United States intends to focus on 
several priority areas to demonstrate the added value that 
Taiwan brings to the international system in tackling regional 
and global challenges.
    First, working with like-minded nations to advocate for 
Taiwan's role in global health efforts, such as COVID relief, 
as well as cancer research and other research efforts in the 
WHO and its subsidiary organizations, including the 
International Agency for Research on Cancer, known as IARC in 
diplo-speak.
    Second, advocating for opportunities for Taiwan to attend 
the International Civil Aviation Organization, ICAO, and 
Interpol meetings, and exchange key aviation safety and law 
enforcement data to promote safer air travel and combat 
transnational crime.
    Third, including Taiwan in the Biden administration's 
renewed efforts to tackle global climate change, partnering 
with Taiwan under the auspices of AIT and TECRO to address 
critical needs and critical technology related to climate 
change.
    From halting the spread of deadly disease to ensuring safe 
and secure aviation to stopping global criminal networks, the 
24 million people of Taiwan can make an important and 
constructive contribution in the international system.
    In the face of unprecedented global challenges, we will 
continue to work assiduously to secure Taiwan's vital voice in 
the room.
    I thank you for the opportunity to appear before you today, 
and I welcome your questions.
    [The prepared statement of Ambassador Barks-Ruggles 
follows:]

        Prepared Statement of Ambassador Erica J. Barks-Ruggles

    Thank you, Subcommittee Chairman Markey, Ranking Member Romney, and 
distinguished Members of the Subcommittee.
    I am honored to appear before you as the Senior Bureau Official for 
the Bureau of International Organization Affairs. Ambassador Michele 
Sison, who has been nominated to lead the bureau, had her hearing with 
the Committee last month.
    I want to echo my colleague Jonathan Fritz's words about the 
importance we place on Taiwan's meaningful participation in the U.N. 
and its related bodies, and share some details about my Bureau's work 
on this important issue.
    Taiwan's transparent and democratic management of the COVID-19 
pandemic is a model for the region and the world. This virus knows no 
politics and no borders, and we need to ensure we are hearing from 
everyone with a role to play in the fight against COVID-19.
    At the U.N. Security Council on May 7, Secretary Blinken called for 
the modernization of the coalitions we include in diplomacy and 
development efforts, including forging non-traditional partnerships 
with civil society and private sector actors.
    It is no coincidence that on the same day, he also called on the 
World Health Organization to allow Taiwan to participate as an observer 
in the World Health Assembly. Taiwan's public health experts, who have 
worked to protect the 24 million people on the island, are a prime 
example of key actors with important information to share. They deserve 
a voice in the room in institutions like the World Health Organization.
    Shutting them out of last month's World Health Assembly under 
pressure from the People's Republic of China weakened us all. I am 
proud of the work my team did to advocate for Taiwan's participation, 
and equally proud of our efforts to work closely with partners to 
broaden the coalition of countries that share such objectives. But 
there is clearly much more work to be done.
    In that vein, for more than a decade the Bureau of International 
Organization Affairs has convened biannual talks to address these 
concerns. Over time, we continue to expand the scope and breadth of our 
discussions. I had the honor of convening our twice-yearly talks with 
Taiwan virtually on March 30.
    Key U.S. Government officials and subject matter experts from the 
Department of State, the Department of Health and Human Services, and 
the American Institute in Taiwan engaged with their Taiwanese 
counterparts to build support among likeminded countries and 
incorporate more stakeholders.
    It is important to note that these talks included a robust 
discussion on Taiwan's meaningful participation in U.N. agencies as 
well as other international organizations and multi-stakeholder 
initiatives.
    Moving forward, the United States intends to focus on several 
priority areas to demonstrate the added value that Taiwan brings in the 
international system to tackling regional and global challenges:

  <bullet> First, working with like-minded nations to advocate for 
        Taiwan's role in global health efforts, such as COVID-19 relief 
        and cancer research with the WHO and International Agency for 
        Research on Cancer (IARC);

  <bullet> Second, advocating for opportunities for Taiwan to attend 
        International Civil Aviation Organization and INTERPOL 
        meetings, and exchange key aviation safety and law enforcement 
        data to promote safer air travel and combat transnational 
        crime; and

  <bullet> Third, including Taiwan in the Biden administration's 
        renewed efforts to tackle the global climate crisis, partnering 
        with Taiwan under the auspices of AIT and TECRO to address 
        critical needs related to climate change.

    From halting the spread of deadly disease, to ensuring safe and 
secure aviation, to stopping global crime networks, the 24 million 
people of Taiwan can make important and constructive contributions in 
the international system.
    In the face of unprecedented global challenges, we will continue to 
work assiduously to secure Taiwan's vital voice in the room.
    Thank you for the opportunity to appear before you, and I welcome 
your questions.

    Senator Markey. Thank you, Ambassador, so much. Thanks to 
the both of you. So we will begin questions from the 
subcommittee.
    Let me ask you this. Looking back at the Taiwan Relations 
Act, the three communiques, and the six assurances which have 
guided our very delicate relationship with Taiwan, are there 
any plans to alter that framework at all that those 
foundational documents have established?
    Mr. Fritz. Thank you very much for the question, Mr. 
Chairman.
    The United States believes that we have been very effective 
in stewarding the unofficial relationship between ourselves and 
Taiwan since the enactment of the Taiwan Relations Act, and we 
have a commitment to maintaining a consistent approach to our 
One China policy based on that legislation, and the three joint 
communiques as well as the six assurances.
    Senator Markey. So nothing is going to change it?
    Mr. Fritz. Mr. Chairman, I would say that we are committed 
to being consistent in terms of our One China policy.
    Within the bounds of that One China policy, certainly, we 
are always seeking to strengthen our unofficial ties with 
Taiwan, not only because Taiwan on its own merits is becoming a 
better partner in many different aspects, but because of the 
increasing threat from the other side of the Strait.
    Again, I would reiterate that that would take place within 
the context of the long-standing U.S. One China policy.
    Senator Markey. All right. Let me ask about the vaccines. 
What is the schedule for those 750,000 vaccines--the doses to 
get to the people of Taiwan?
    Mr. Fritz. Thank you. Thank you very much, Mr. Chairman, 
for that question.
    First of all, I would like to reiterate our thanks to your 
colleagues for their trip to Taiwan to announce that donation. 
I think it is fair to say the reaction on the island was 
nothing short of ecstatic.
    With regards to actually getting those on airplanes and 
flying them, I do not have a set date that I can provide, Mr. 
Chairman.
    What I can tell you is that Taiwan regulators are working 
super intensively with their USG counterparts to make sure that 
we have met all of the requirements of the Taiwan regulatory 
system.
    In very short order, we do expect to have those vaccines on 
their way to Taiwan and, hopefully, into people's arms shortly 
thereafter.
    Senator Markey. You are saying within weeks they will be 
there. Is that what you are saying?
    Mr. Fritz. I would hope, perhaps, even sooner than that, 
sir. I am not able to give a detailed time line for exactly 
when. We do have a few more hoops we have to get through to 
make sure that we have met all of the regulatory requirements 
of our Taiwan friends.
    Senator Markey. Okay. Are there plans to partner with 
Taiwan to manufacture and distribute vaccines?
    Mr. Fritz. Thank you, Chairman.
    As you know, President Biden has made it clear that America 
wants to work together with its friends and partners to become 
an arsenal of vaccines.
    Taiwan does have capacity in this regard, and there are 
talks underway to see how we can cooperate with Taiwan, amongst 
many others, to get the entire world vaccinated to end this 
pandemic.
    As both you and the ranking member mentioned in your 
remarks, Taiwan was incredibly generous and showed great 
flexibility in upping its production of personal protective 
equipment in the early days of the crisis.
    They ramped up their production many, many multiples of 
tenfold and, of course, the United States was one of the great 
beneficiaries of their generosity. We will look to do the same 
with them on vaccines.
    Senator Markey. No, I think it makes a lot of sense, and it 
would only deepen our relationship with them.
    The United States has supplied 550,000 COVID-19 vaccines to 
South Korean armed forces who serve alongside U.S. forces. 
Given the consequences of a COVID-19 outbreak to the 
operational readiness of Taiwan's armed forces, would the 
Administration consider providing vaccines as an extension of 
our commitment to Taiwan's self-defense?
    Mr. Fritz. Thank you, Mr. Chairman.
    As you know, this first tranche we have set aside 750,000 
doses of vaccine for the island, and this is, of course, only 
the first of what we hope will be many tranches of donations.
    I cannot speak to specific allocations that will happen in 
the second and then, hopefully, third, and then future 
tranches.
    We will continue to take into consideration the needs of 
our very close friends in Taiwan, keeping in mind not only 
their security needs but also the fact that a number of very 
critical industries, like semiconductors, for example, could 
potentially be affected by an unchecked outbreak of COVID 
there.
    Senator Markey. Yes, and I recognize that our armed forces 
do not serve alongside of the Taiwan armed forces the way our 
forces do with the South Korean military.
    I do believe that these vaccines can be as valuable if they 
go directly to those troops as any weapons system, which we 
sell to Taiwan. So I would recommend to the Administration that 
they look at that.
    So let me turn and recognize the ranking member, the 
gentleman from Utah.
    Senator Romney. Thank you, Mr. Chairman.
    I think it may well be confusing to our public, generally, 
and perhaps to people on the Hill to consider two things.
    One is the term that says that we believe in the One China 
policy and then at the same time to say that we believe the 
people of Taiwan ought to be able to choose their own destiny.
    Can you describe what the One China policy means and how 
you square that with the principle that the people of Taiwan 
should be able to choose their own course?
    Mr. Fritz. Thank you very much, Ranking Member Romney. That 
is a great question and, certainly, one that could use some 
further public elucidation.
    The One China policy refers to the fact that we have 
diplomatic relations with the People's Republic of China and, 
of course, that has implications for who is seated in various 
international organizations.
    My colleague, Ambassador Ruggles, can speak to that. Under 
our One China policy, even though our relationship with Taiwan 
is now on an unofficial basis, we nonetheless have made clear 
in both public statements with private demarches and otherwise 
that we will continue to maintain and, in fact, even grow a 
very, very close relationship with Taiwan in the security, in 
the economic, in the cultural and many other spheres.
    As you point out, Taiwan is a fellow democracy. It is 
important to peace and stability in the Western Pacific and it 
is absolutely in the U.S. interest to make sure that the 24 
million people of Taiwan are able to make choices about their 
own future free from coercion from across the Strait.
    So we will continue to do everything we can to show that 
rock-solid American support for Taiwan's democracy and for its 
ability to choose its own future.
    Senator Romney. My perception of how we are doing really 
falls into sort of two buckets. One is associated with the 
people of Taiwan.
    My reading suggests that what the Communist Chinese Party 
has done in Hong Kong has solidified in the mind of the 
Taiwanese people that the idea of one country/two systems is 
not real, and the most recent actions even today, where the 
Chinese Communist Party has raided a newspaper and incarcerated 
leaders of an independent newspaper in Hong Kong, this has got 
to underscore in the minds of the people of Taiwan that China 
has a very different intent than allowing them to operate on 
their own if they were somehow combined with China.
    On the other hand, my perception is that the nations of the 
world, the geopolitical dynamics, have not been working in 
favor of a strong and free to make its own choice Taiwan, that 
instead the geopolitical dominoes have been falling in the 
other direction in terms of them being excluded from more and 
more international bodies, having recognition being shut off by 
nations in the region. I wonder why it is.
    If I am correct that China is, if you will, being more 
effective in closing off Taiwan from international support, why 
they are being successful at that and why we are being 
unsuccessful at that, while they are winning and we are losing.
    Mr. Fritz. Thank you, Ranking Member Romney.
    We are of one mind on your observations regarding Hong Kong 
and how that applies to Taiwan. I, obviously, do not want to be 
in the position of speaking for folks on Taiwan.
    Clearly, PRC promises of high degree of autonomy for Hong 
Kong and maintenance of Hong Kong civil liberties have been 
completely and thoroughly discredited over the last year, 
particularly since the unilateral enactment of the National 
Security Law.
    So it is no surprise that folks in Taiwan who might at one 
point in the past have contemplated some consideration of a one 
country/two systems formula would now find that to be an 
altogether unappetizing prospect.
    With regard to the geopolitical dynamics, certainly, there 
are challenges. As you point out, the People's Republic of 
China is extremely aggressive in pushing to constrain Taiwan's 
political space.
    I would point, however, to successes we have had both on 
the multilateral front, and I will let Ambassador Barks-Ruggles 
talk about that.
    Even bilaterally, the Biden/Harris administration has been 
quite successful in getting many of our closest friends and 
partners and allies to publicly declare their support for peace 
and stability in the Taiwan Strait and for Taiwan's democracy.
    The joint statement that resulted from the visit of the 
Japanese Prime Minister, the joint statement that resulted from 
the visit of the South Korean President, the G-7 ministerial 
communique, the G-7 summit communique, the U.S.-EU summit 
document--I cannot remember if it was a communique or joint 
statement--in all of these, we have seen unprecedented public 
statements in support of Taiwan and peace and stability across 
the Strait.
    So, again, Ranking Member Romney, I will not deny that the 
PRC is applying a lot of pressure on folks around the world to 
isolate Taiwan. There are, in fact, some antibodies at work, 
and we are doing everything we can to strengthen those 
antibodies.
    Senator Romney. Thank you.
    Senator Markey. The chair recognizes the Senator from 
Delaware.
    Senator Coons. Thank you.
    Chairman Markey, Ranking Member Romney, thank you for 
holding a hearing on this vitally important topic, and let me 
thank both of our witnesses today. It is great to see you 
again.
    Ambassador Barks-Ruggles, I must say, as I look back over a 
decade, our meeting in Rwanda is truly one of the most 
memorable exchanges I have had, and I do not need to go into 
details but it will long live in my memory as one of the most 
challenging and difficult diplomatic moments we may have both 
had together in our brief service to the people of the United 
States.
    I was so grateful for the opportunity, facilitated by the 
Administration, to visit Taiwan with Senators Duckworth and 
Sullivan to announce the delivery of vaccines to Taiwan.
    We were also in South Korea and had an opportunity to be 
there as a million doses were delivered to South Korea as well.
    I thought it was an important opportunity for us to make 
real our response to Taiwan's kindness to us in the early days 
of the pandemic, as the United States was truly struggling with 
the provision of PPE.
    Taiwan sent 10 million masks to the people of the United 
States. In fact, Senator Sullivan brought one of those masks 
with him and was wearing it during our press conference when we 
landed in Taipei.
    So I think it was only fitting and appropriate that the 
Administration come to Taiwan's aid with a safe and effective 
vaccine, as they have experienced a modest increase in COVID-19 
cases but still profoundly concerning to the people of Taiwan.
    I think we are all watching conditions in the Taiwan Strait 
closely, and this week's entry of 28 Chinese military aircraft 
into Taiwan's air defense identification zone.
    I would be interested in both of you speaking, if you 
could, to the question do you agree that escalating 
provocations by the PRC toward Taiwan are failing to create the 
appropriate incentives for Taiwan to work towards peaceful 
unification?
    Mr. Fritz. Thank you very much, Senator Coons.
    Let me start off by reiterating my gratitude to you and 
your colleagues for making the trip to Taiwan. As you know full 
well, at that time the Taiwan authorities were under a fairly 
extensive disinformation campaign trying to draw divisions not 
only on the island but also between Taiwan and the United 
States.
    I know it had a very galvanizing effect on the morale of 
the entire island. I have a picture from TECRO representative 
of the lit-up Grand Hotel with the giant U.S.A. emblazoned on 
it.
    I think you struck a great blow for Taiwan's democracy and 
against attempts by the PRC to undermine that democracy and sow 
discord. So thank you again for that.
    With regards to your question about recent PLA incursions, 
whether its naval forces or its air forces, into the airspace 
and waters around Taiwan, you are absolutely right. This is, 
unfortunately, part of an ongoing pattern of increasing 
military pressure that the PRC is bringing to bear on Taiwan.
    The Administration has been very clear in calling this out, 
condemning China's attempts to intimidate its neighbors in the 
region to include Taiwan, of course, and instead urging that 
Beijing engage in dialogue with the Taiwan authorities.
    In addition to that, Senator, of course, we are also taking 
steps to make sure that Taiwan is able to defend itself. That 
is not just a reference to our ongoing arms sales to the 
island, but also to our ever-strengthening security cooperation 
which is aimed at getting Taiwan's defense approach, if you 
will, to more approximate that of a porcupine, so that they 
will more faithfully and expeditiously implement their overall 
defense concept, moving towards a more dispersed, mobile, and 
cost-efficient platforms, training their reserves for a sort of 
defense in depth sort of approach--anything that would, 
basically, complicate the efforts of the PLA to plan for any 
potential invasion of the island.
    Senator Coons. I have two more questions, if I might. I 
will ask them both and then let you both decide which is the 
more appropriate to answer.
    Last year in the State and Foreign Operations 
Appropriations Subcommittee, I worked to include more robust 
funding for the Global Cooperation Training Framework.
    This is a way to allow the world to learn more about the 
capabilities of the people of Taiwan and for them to be able to 
participate in international issues of development, 
cybersecurity, engagement, and I think it has been a useful 
tool for helping preserve Taiwan's international space.
    I would be interested in hearing more about what the 
Administration has planned for the GCTF for this year and 
future years.
    I noted that USTR Ambassador Tai recently had a 
conversation with her counterpart, and I would be interested in 
what either of you could say about our plans moving forward in 
terms of trade talks.
    Thank you.
    Mr. Fritz. Thank you, Senator. I will take a swing at both 
of those.
    With regards to the Global Cooperation and Training 
Framework, thank you and thank your colleagues for the 
appropriation of $3 million. That is going to really allow us 
to expand that program.
    I agree 100 percent, Senator, that has been a very 
effective platform for, basically, advertising the Taiwan 
brand, if you will.
    I think we have something like more than a thousand folks 
from around the world who have participated in the various 
seminars the GCTF has helped put together.
    Another thing that we are doing, the State Department now 
has sort of China experts deployed not just in the People's 
Republic of China and Taiwan and Hong Kong, but also in 
regional hubs around the world, and we are giving those 
regional China officers some authorship and some ownership of 
the GCTF.
    So in the future, it will not just be headquarters folks 
plotting and planning those GCTF programs and seminars. We will 
have folks actually in, you know, Francophone Africa, for 
example, or the Caribbean, who will be able to tailor these to 
specific audiences in the parts of the world they are 
responsible for.
    So I could not agree with you more on the effectiveness of 
that, and again, thanks for the appropriation that will really 
help us expand that.
    With regards to the meeting that Ambassador Tai had with 
her counterpart, Minister Deng, obviously, I would defer to 
USTR on the details. I will point out that Ambassador Tai and 
Minister Deng did commit to restarting our Trade and Investment 
Framework Agreement talks.
    We have not had a round of TIFA council meetings, I think, 
for something like 4 or 5 years now. I do believe the USTR is 
planning to hold one of those in the very near future.
    There is, obviously, a broad range of issues to go into 
great detail with Taiwan, given they are our ninth largest 
trading partner and home to many industries of very strategic 
importance, whether that is in the health sector or 
semiconductors.
    I think it is probably safest for me to defer to my 
colleagues on 17th Street there, Senator. Thank you.
    Senator Markey. As much of cross-strait relations are mired 
in strategic ambiguity on both sides, it may become more 
difficult to distinguish between actions that fall below the 
threshold of conflict with those that risk leading to an 
escalation.
    We know from the U.S.-China summit in Anchorage, Alaska, 
that China's leaders are not shy about referring to Taiwan as a 
redline issue or part of its core interests, the implication 
being that it is willing to go to war over Taiwan.
    I believe that we need to have ongoing dialogues to ensure 
that a military exercise or an incident at sea does not become 
a prelude to a conflict. As the Singaporean Prime Minister 
recently said of the stakes of a U.S.-China war, everything is 
to be lost.
    Mr. Fritz, do you agree that it is in the interest of all 
sides to avoid a war over Taiwan, which would lead to 
catastrophic consequences for all parties involved?
    Mr. Fritz. Mr. Chairman, I absolutely agree with that, and 
I would like to point out that along the lines of what you just 
mentioned, in Anchorage and elsewhere our top leadership, 
including Secretary Blinken, have made it extremely clear to 
our PRC counterparts that it would be a very serious mistake 
for them to resort to anything other than peaceful means to 
resolve cross-strait differences.
    I think in both word and deed we have made it crystal clear 
to our friends in Taiwan, to the leaders in Beijing, and to 
folks around the world how important peace and stability in the 
Taiwan Strait is.
    Senator Markey. Now, some observers say that China is 
unlikely to move to forcefully attempt to unify Taiwan barring 
a push for independence by Taiwan. Others note that their 
calculus is driven by the moment when it believes it is most 
militarily advantageous for them to do so.
    Regardless of what motivates Beijing, our policy approach 
should be the same. Do you agree that it is important to signal 
that any disruption to the status quo, be it through forcible 
unification or independence, is unacceptable?
    Mr. Fritz. Mr. Chairman, I agree with that statement.
    Senator Markey. So I do not believe that we are entering a 
new cold war with China, but we can draw upon lessons from 
U.S.-Soviet and U.S.-Russia transparency and confidence-
building steps and formal agreements that help prevent the cold 
war from going hot.
    I am concerned that we do not have an active crisis hotline 
between our militaries and I am also concerned that Secretary 
of State Blinken indicated following the Anchorage summit that 
we would not be seeking a follow-on strategic dialogue with 
China.
    It is in our interest to ensure that a conflict of the 
strait or the South China Sea does not escalate between the 
United States and China, both of whom are nuclear armed.
    It is still the position of the State Department that it 
does not seek an additional strategic stability dialogue with 
Beijing to negotiate measures that reduce the risk of 
hostilities?
    Mr. Fritz. Thank you, Mr. Chairman. You raise a very, very 
important series of issues there.
    I would point out that this Administration, while it is not 
interested in dialogue for dialogue's sake, is still very much 
committed to maintaining open lines of communication with 
Beijing so that sensitive issues like Taiwan, amongst many 
others, are not able to cause misunderstandings that could lead 
to some unfortunate consequences.
    As you pointed out, and, obviously, it is quite in the 
public eye, we have already had the Secretary and National 
Security Advisor Sullivan meeting with their counterparts in 
Anchorage.
    I can assure you that the Secretary and the Deputy 
Secretary of State have had additional interactions with their 
counterparts since then. We expect those to continue, going 
forward.
    The issue of communications in a crisis is, indeed, a very 
important one. That is something that is very high on our 
agenda. We have no desire for misunderstandings that could 
potentially lead to unfortunate consequences.
    So that will, indeed, be something that will factor very 
high on the agenda both at the State Department and other 
agencies around the executive branch as well.
    Senator Markey. Okay. Well, the Chinese military's 
incursions into Taiwan's air defense identification zone and 
amphibious assault exercises have increased to their highest 
levels in 25 years.
    These actions have raised concerns about a looming conflict 
over Taiwan.
    However, we also know that a protracted conflict over 
Taiwan is not likely in China's interest, that their military 
does not seem to have the appropriate military capabilities for 
such a confrontation and that Beijing has responded in a 
similar provocative way to U.S. arms sales to Taiwan in the 
past and in response to shifts in Taiwanese politics.
    Mr. Fritz, to what do you assign recent provocative moves 
by Beijing in the Taiwan Strait?
    Mr. Fritz. Thank you for that question, Mr. Chairman.
    There is some debate about that. Beijing's leadership is 
notoriously opaque, and so it would be somewhat difficult for 
me to opine with any sort of authoritativeness on what is 
motivating the PRC to take an ever more aggressive approach to 
intimidating Taiwan.
    Certainly, much of it has to do, I believe, with the fact 
that the PRC is very upset with the results of the two most 
recent presidential elections on the island. That, obviously, 
has factored into their calculations quite severely.
    The U.S. Government's view is that as Beijing seeks to 
disrupt the status quo by upping the pressure, it is incumbent 
upon us to further reinforce our support for Taiwan.
    In addition to the United States doing that, Mr. Chairman, 
I would also point out that another very important factor, we 
think, in deterring Beijing aggression is to make this more of 
a multilateral issue, and that is why we have worked so hard 
with our friends and allies--the Japanese, the South Koreans, 
our Five Eyes partners, the G-7, the Europeans--to get them to 
come out in public and also voice their support for Taiwan's 
democracy and for peace and stability in the Taiwan Strait.
    Senator Markey. Well, let me just finish up by saying that 
Taiwan has taken important steps to increase its defense 
budget.
    However, it has averaged 1.8 to 2.1 percent of GDP over the 
last 5 years, short of the 3 percent target that U.S. and 
Taiwan policymakers have made.
    My hope is that the Biden administration supports the 
effort to get Taiwan to move closer to that 3 percent target. 
It is a wealthy country. Is that the goal of the Biden 
administration?
    Mr. Fritz. Yes, that is, Mr. Chairman.
    Senator Markey. Okay. Thank you.
    Let me turn, recognize the Senator from Utah, Mr. Romney.
    Senator Romney. Thank you, Mr. Chairman. We are going to 
give Mr. Hagerty a chance to speak in just a minute but he said 
let me go first, so I will do that.
    There are many fronts on which we would like China to take 
a different course. This is, obviously, one of them. Their 
ambition to dominate the people of Taiwan, but their treatment 
of the Uighurs and minorities, of religions, their predatory 
actions in the world economic marketplace, there are so many 
dimensions where we would like China to change course.
    That raises the question about what we can do and what the 
Administration's strategy is with regards to convincing the 
Chinese Communist Party to allow Taiwan to determine its own 
destiny and not to invade or dominate the people of Taiwan.
    I am not talking about military action. Clearly, there is a 
military component that figures very significantly into any 
effort to dissuade China from invasion or the like.
    Putting aside military deterrent, what things can we do 
that would have the potential of convincing China, let us not 
focus on making Taiwan a vassal state? If we look back, we 
walked away from the TPP.
    Many people thought that the agreement that we might have 
in the region economically would be able to strengthen our hand 
relative to China and create a stronger neighborhood.
    The Quad, obviously, has potential with regards to that 
effort. I am interested in your view and the Administration's 
view about what actions we can take. Oftentimes, when people do 
bad things we place sanctions on them.
    The challenge with sanctions, of course, is what we do 
after they have done the bad thing and we would like to prevent 
the bad thing from happening.
    What is our strategy with regards to convincing the Chinese 
not to play a heavy hand with regards to Taiwan?
    Mr. Fritz. Thank you, Ranking Member Romney. That is a 
fabulous question.
    First, we point out to our PRC counterparts often that few 
countries have benefited from peace and stability in that part 
of the world as much as the People's Republic of China has.
    Second, we make it clear that this is not just a bilateral 
concern. As I pointed out, we have been hard at work making 
sure that major partners of ours around the world are speaking 
up and demonstrating their support for Taiwan, and again, not 
necessarily in a military fashion. Diplomatically, 
economically, parliamentary exchanges--there are a number of 
ways for that to be manifested.
    Third, we have also been very, very clear, as I mentioned 
earlier, with the PRC in terms of--I guess I would be best 
suited to just quote Secretary Blinken.
    He said it would be a very serious mistake for anyone to 
resort to anything other than peaceful means to resolve cross-
strait differences, and I am very confident that the PRC 
leaders in Beijing are crystal clear that if they were to 
decide to use some coercive manner to unify Taiwan, they would 
face grave consequences.
    As you pointed out, Ranking Member Romney, those would not 
necessarily be confined to the military arena either. 
Reputational, economic--there be any number of areas in which, 
I think, they would have to think very, very long and hard 
about making a momentous choice like that.
    Senator Romney. I would just note my own personal view that 
the more specific we might be in advance with not only our own 
communications but also with communications of our friends and 
allies around the world about the economic consequence of China 
using coercive means to impose its will on Taiwan would, 
potentially, be helpful in dissuading them from using such 
means, and that it would be helpful for us to be 
extraordinarily explicit and for our friends and allies around 
the world to combine and speak about this specifically so that 
China would have a good sense of what we are talking about.
    Because, frankly, China and Russia, for that matter, have 
done a lot of bad things over the past couple of decades, and 
we have told them of the terrible consequences that would be 
rained upon them for the things they did.
    Somehow they are getting along just fine, and the 
consequence was not as great as they might have once feared.
    I think we need to be more specific as we deal with China 
and its potential aggressiveness with regards to Taiwan.
    Thank you, Mr. Chairman.
    Senator Markey. Great.
    Senator Hagerty.
    Senator Hagerty. Thank you, Chairman Markey, Ranking Member 
Romney. Thank you very much for the time here today for having 
this hearing. To our witnesses, thank you.
    Ambassador, I would like to start with you, if I might. It 
is a point that has been a concern of mine for some time 
regarding international organizations and that is the fact that 
American funding of these organizations is far disproportionate 
to the American employees that are present at those 
organizations.
    We are far underrepresented, in my perspective, and I look 
at how other countries accomplish disproportionate 
overrepresentation. They take advantage of a series of 
programs: the U.N. Junior Professional Officer program, the 
World Bank donor-funded staffing program, and the U.N. Special 
Assistant to the Regional Coordinating program.
    In particular, China has done a big job at doing this and 
in doing so achieving a disproportionate representation, 
disproportionately high representation in these organizations.
    It also is evident to me that the United States takes very 
little advantage of these organizations, and it puts us at a 
numeric disadvantage when you look at how we project our 
influence in these organizations, how we make American thought 
and American perspective heard, particularly in light of the 
fact that these other countries that do not pay as much on a 
percentage basis are over represented.
    So I would like to know how many of these positions, these 
three programs that I just mentioned, does the department 
currently fund, and do we intend to continue funding those?
    I would like to get an accounting of that.
    Ambassador Barks-Ruggles. Thank you, Senator, for your 
question, and I appreciate your interest in this important 
issue.
    We have been examining this as part of our efforts 
supported very generously by the Senate and we appreciate your 
support for that, as we have set up our new Office of 
Multilateral Strategy and Personnel, which we are now in the 
process of getting authorization for and hope to be staffing in 
the next several weeks here.
    Because this is an important issue, how do we take best 
advantage of those programs throughout the U.N. system and 
throughout the other international organization systems to make 
sure that we are placing the next generation of American 
professionals in those organizations to ensure their integrity, 
their strength, their efficacy, and also their accountability, 
because we do provide a lot of funding for those organizations.
    I do not have the exact figures of the number of JPOs that 
we pay for in the system. That number, I know, is increasing, 
again, in part due to the support we have received from this 
committee and from the Senate.
    We appreciate very much that effort and we are in the 
process of preparing our regular reports on these programs, 
where we will have the numbers and we are happy to share those 
with you.
    We are looking at how do we increase, not only in the JPO 
programs but also in the mid ranks and in the senior ranks, and 
making sure that we have, if not Americans, like-minded 
partners and allies that share our values who are in those 
positions, because it is important not only in the senior 
leadership positions but all the way down that you have people 
who are going to be independent minded, that are going to 
reinforce the values and the foundational strengths of the 
international system so that we can fight back against this 
bullying that has been happening.
    Senator Hagerty. Well, I would look forward to hearing from 
your organization. If you could provide a timeline of how these 
numbers have moved over time.
    I am encouraged to hear that they are increasing. At least, 
that is your sense of it. I would also like to understand what 
measures you are taking, particularly at the financial 
organizations and the standard setting organizations, how you 
are strategizing a way to move forward in this, and in 
particular, the HR policies that may be discriminatory toward 
Americans.
    My understanding is that if a person has dual citizenship 
that they are counted as an American rather than whatever the 
other citizenship might be, again, making the numbers harder 
for us to accomplish.
    I am particularly concerned with respect to World Bank IMF 
roles there in terms of us being underrepresented, and it has 
become even more obvious to me in recent years that standard-
setting bodies, particularly with respect to 5G, are an area 
where we need to be deeply concerned and deeply focused on 
being properly represented there.
    So I appreciate a report back at your earliest convenience 
on that.
    Mr. Fritz, if I could turn to you, please. I appreciate the 
fact that in April, the department has issued new guidelines 
for how we interact as the United States Government with 
Taiwanese counterparts.
    I certainly support the fact that we are going to be more 
focused on and taking a greater perspective on having our 
United States diplomats engage with Taiwanese counterparts in 
that regard.
    I want to particularly commend my former DCM, Joe Young, 
who is now the charge or was most recently the charge 
d'affaires in Japan for hosting his counterparts at the Taiwan 
Economic and Cultural Office there in Japan at the U.S. 
Ambassador's residence. I think that sends a very strong 
message.
    Deputy Assistant Secretary Fritz, I wanted you to provide 
any further updates that you might have on these guidelines, 
how we are making progress on this and how you see it 
unfolding.
    Mr. Fritz. Thank you very much for that question, Senator.
    I can tell you that these new guidelines are, indeed, the 
most liberal that we have had since, basically, 1980 when we 
first started issuing these at the State Department.
    There are a number of restrictions that were part of 
earlier versions that have been lifted, allowing for more easy 
contacts, meetings in U.S. office buildings, at the offices of 
the Taipei Economic Cultural Representative Office, without 
going into specifics of any of these specific meetings, I can 
tell you we are taking full advantage of these, and our Taiwan 
friends are noting this and are quite appreciative.
    I would point out that the new contact guidelines have had 
been welcomed in public from President Tsai's office down 
through the Ministry of Foreign Affairs to TECRO here in 
Washington, DC, and you really can see the uptick in 
interactions between U.S. Government officials and their Taiwan 
counterparts.
    Senator Hagerty. Well, I would just note this, and I 
appreciate the time, but the meeting between Charge d'Affaires 
Young and his counterpart at the Ambassador's residence in 
Japan got press all over the Japanese media and all over Asia.
    So this can make a real mark. It could send a real message. 
So I appreciate you are expanding this policy as much as 
possible.
    Thank you.
    Senator Markey. Senator Coons, do you have any additional 
questions? No.
    Back to you, Senator Romney.
    Senator Romney. Just a couple of questions and comments.
    My understanding is that China has used its vaccines as a 
key part of diplomacy at the same time it has used this 
opportunity to suggest that America is not a very helpful ally 
of the people of Taiwan.
    Taiwan's Ambassador indicated that she had actually 
received indication of texts coming from the Chinese Communist 
Party saying that Americans have so much vaccine that we are 
vaccinating our pets, and that we think more of our dogs than 
we think of the people of Taiwan.
    This kind of misinformation spreads throughout Taiwan, and, 
therefore, I want to underscore something that others have 
raised, which is the urgency for getting vaccines to the people 
of Taiwan.
    There is a need for about 2 million vaccinations. We have 
agreed to 750,000. I would strongly encourage us to move as 
soon as we can to the higher number and that we get these to 
the people of Taiwan as urgently as we possibly can.
    This is a nation, obviously, seeing a significant uptick in 
infections, given the Delta variant, and it has humanitarian 
implications, but also strategic implications that are very 
important, given the disinformation campaign that the Chinese 
are carrying out.
    Is what I am saying consistent with your own understanding 
of what is happening with regards to Chinese misinformation and 
is that happening on various fronts around the world?
    Mr. Fritz. Ranking Member Romney, you are absolutely right. 
I think Taiwan is probably receiving, you know, the brunt of 
PRC disinformation.
    On the other hand, we have also seen Taiwan develop quite a 
bit of resilience to this sort of thing. They are getting very 
good at identifying and pushing back with media literacy, 
social media literacy programs, transparency, basically, and we 
have actually quite a lot to learn from them in terms of 
combating disinformation.
    Back to the Global Cooperation and Training Framework, a 
platform that Senator Coons mentioned, we have been able to use 
that platform to take some of Taiwan's expertise and share it 
with others around the world who are also subjected to PRC 
disinformation but also disinformation from other bad actors, 
whether that be the Russians or others.
    Senator Romney. One more question, and that is I would hate 
for us, in our concern about China's interference in the region 
with the people of Taiwan, to do something or say something as 
a body or as individuals that would precipitate or give an 
excuse to China to take action they might not otherwise take.
    Do you have any warning or guidelines or suggestions to us? 
Because a number of us feel like, you know, we want to make it 
very clear that we stand with the free people of Taiwan, that 
we abhor what the Communist Chinese Party has communicated in 
its intent with regards to Taiwan.
    Are there boundaries we should not cross for fear of 
precipitating some type of a coercive action?
    Mr. Fritz. That is a great question, Ranking Member Romney. 
Thank you for that.
    Of course, that is the entire premise of our One China 
policy, to make sure that we abide by our diplomatic ties with 
Beijing while at the same time within the parameters of our 
unofficial relationship with Taiwan doing everything we can to 
support them.
    That includes stronger security cooperation, commercial 
ties across the board, vaccine donations, visits from VIPs, et 
cetera.
    We also, as you point out, want to be very careful not to 
engage in any symbolic sorts of provocations that will do 
nothing other than merely raise the risk for Taiwan and, 
perhaps, precipitate the very thing that we are trying to avoid 
and deter, which is the PRC feeling compelled to take some sort 
of coercive action against the island.
    Senator Romney. Thank you, Mr. Chairman.
    Senator Markey. Thank you, Senator Romney.
    Again, we have been in a situation over the last several 
months in our country where, on a bipartisan basis, Democrats 
and Republicans are coming together to pass comprehensive 
legislation in order to deal with the economic threat, the 
strategic threat that China poses to our country, and part of 
that is a bill that is going to be very large, a couple of $100 
billion, looking at this issue and trying to unleash the 
innovation inside of our country.
    When you really peel it all back, we are looking at the 
fact that semiconductors are now not made in the United States 
in any substantial measure, and as a result, we are vulnerable 
because our country runs on semiconductors.
    We are a chip-driven country. That is who we are. We are 
only 5 percent of the world's population but we are not an 
honorary 5 percent and that is because we are an advanced 
technological country.
    Of course, underlying this is a realization that 50 percent 
of all the chips in the world are made in Taiwan, and so it 
only further reemphasizes how important Taiwan is to us, which, 
I would say, brings us back again to vaccines, to look at the 
$200 billion piece of legislation we are going to move to deal 
with it.
    Yet, over here we have an additional capacity to help, and 
I would urge that we do that because I think it actually is 
part of a larger story right now and we want to cement that 
relationship and the great work of Senator Coons and other 
members of the Senate, and visiting Taiwan is, obviously, very 
important.
    At the same time, the more we do is the less costly it 
could be to us in the long term by welding the Taiwanese people 
to the interests of the United States.
    Let me ask you, Ambassador Barks-Ruggles. The United States 
meets quarterly with Japan, Canada, Australia, the United 
Kingdom, and the EU to discuss ways to expand Taiwan's 
participation in international organizations.
    What does the world have to gain from a Taiwan that has an 
elevated global profile?
    Ambassador Barks-Ruggles. Mr. Chairman, I appreciate your 
question on that.
    The Taiwanese people, as you have pointed out, have 
advanced industry and an advanced economy that has much to 
offer on a number of fronts, including on the technological 
front for combating climate change.
    It also has a lot to offer, as you have noted repeatedly, 
on health issues, spanning from COVID and their response to 
COVID, to cancer research, where they have done some very 
advanced research that we have worked with them on and our 
research institutes have worked with them on.
    We believe that they have a voice, they have expertise, and 
they have experience that is valuable to the entire world in 
combating these global issues.
    They also have a lot to bring to the table in areas from 
civil aviation safety, where they have an enormous experience 
dealing with a very tough geography for their airport, and they 
can bring that to the table at the Civil Aviation Organization, 
and in law enforcement and combating international global 
criminal networks, where we think that they can bring a lot 
more to bear at Interpol and related agencies.
    So 24 million people with an advanced economy should have a 
voice at the table on all of these fronts, and we are committed 
to trying to work with them to do so.
    Senator Markey. Yeah, I agree with you when you talk about 
civil aviation. It does not make any sense. China cannot, 
obviously, want there to be mid-air aviation collisions. So 
excluding Taiwan from the Civil Air Organization makes 
absolutely no sense whatsoever.
    Again, I just think it is important for us to press as hard 
as we can for entrance.
    Let me turn again to you, Senator Hagerty.
    Senator Hagerty. Thank you, Chairman Markey.
    I just want to follow on this point that you raised. I 
would like to turn to Mr. Fritz, though.
    This is something that, again, is of great concern and very 
related to the last line of questions. It has to do with 
Taiwan's diplomatic posture and the fact that since President 
Tsai was inaugurated in 2016, Taiwan has lost seven. They are 
down to 15 diplomatic partners right now.
    I would like to get your read on the trend here, Mr. Fritz, 
and what you think the United States might be able to do to 
help Taiwan maintain its diplomatic presence. The Communist 
Chinese Party pressure on this is enormous, as you know, and 
they have been fairly effective since President Tsai took 
office.
    So I look forward to your thoughts on this trend. Thank 
you.
    Mr. Fritz. Thank you, Senator Hagerty.
    Yes, you are absolutely right. The trend has been quite 
bad. As you pointed out, seven of Taiwan's diplomatic partners 
have been poached since Tsai Ing-wen won election in 2016.
    As several of your colleagues have pointed out, the PRC has 
been very aggressively using vaccine donations as a lever to 
induce more of Taiwan's diplomatic partners to switch 
recognition.
    We do engage very intensively with Taiwan's remaining 
diplomatic partners and point out to them the many benefits of 
having a reliable partner that, in fact, does not use, whether 
it is vaccines or investments or any other lever, as sort of a 
tool of political coercion, if you will.
    Also working with our Taiwan friends to help promote 
investments and trade with those remaining diplomatic partners. 
I would point out that in addition to those remaining 
diplomatic partners, so those 15, we are also working very hard 
on the rest of the world, all of those countries that do not 
have diplomatic relations with Taiwan anymore, but can and 
should have even stronger unofficial ties.
    We are trying to set a good example of that ourselves with 
recent actions, and we believe that whether that is folks in 
Europe or Asia or elsewhere, are engaging within the bounds of 
their own diplomatic versions of our One China policy.
    Culturally, parliamentary exchanges, closer commercial 
ties--all of that is to the good and I think over time is a 
quite important strategic deterrent to the PRC when it sits 
down and thinks about even the possibility of a non-peaceful 
strategy for unifying the island.
    Senator Hagerty. Thank you.
    Senator Markey. I thank the senator.
    We thank the witnesses for your great testimony today. I do 
not see any other members who are seeking recognition at this 
time.
    So I want to thank all of you for your participation, and I 
applaud the Biden administration for its work to strengthen our 
partnership with Taiwan. The recent statements from U.S.-Japan, 
U.S.-South Korea, and the G-7 summits in support of Taiwan are 
just one indication of this Administration building back a 
better foreign policy.
    For the information of the members, the record will remain 
open until the close of business on Monday, June 21st, for any 
other members seeking to in writing submit questions to the 
Administration.
    So with that, this hearing is adjourned.
    [Whereupon, at 11:11 a.m., the committee was adjourned.]
                              ----------                              


              Additional Material Submitted for the Record


             Responses of Mr. Jonathan Fritz to Questions 
                 Submitted by Senator Edward J. Markey

    Question. Taiwan recently applied to be a manufacturer of Moderna 
vaccines which could enable it, as a leader in mRNA technology, to meet 
domestic demand for vaccines and help it become an exporter of life 
saving shots to the region and the world. What are the U.S. plans to 
partner with Taiwan to manufacture and distribute vaccines?

    Answer. We have had a close partnership with Taiwan on global 
health issues and have been working together throughout the pandemic. 
Taiwan was there to help the United States in the earliest days of the 
pandemic, providing PPE and other life-saving materials. We remain 
grateful for that generosity, and are proud that we are able to support 
Taiwan in its moment of need with 2.5 million vaccine doses. You can 
expect our strong partnership on COVID-19 and global health to 
continue.

    Question. Would the Departments of State and Defense consider 
inviting Taiwan, provided Japan concurs, to participate in the U.S.-
Japan Extended Deterrence Dialogue (EDD) as an observer?

    Answer. We welcome the recent joint statement from President Biden 
and Prime Minister Suga in support of Taiwan. We will continue to work 
with allies and partners to highlight the positive role Taiwan plays in 
addressing global challenges and encourage them to stand with Taiwan in 
defending against threats to its democratic values.
    U.S. policy has been to preserve cross-Strait stability and 
maintain peace in the Indo-Pacific region; within this context, we will 
continue our robust security cooperation with Taiwan in a manner 
consistent with our ``One China'' policy guided by the Taiwan Relations 
Act, the three Joint Communiques, and the Six Assurances.

    Question. The Taiwan Fellowship Act is included in the Innovation 
and Competition Act, which passed the Senate, as well as the EAGLE Act 
which is still under committee consideration in the House. 
Specifically: What actions has the Department of State and/or the 
American Institute in Taiwan taken to negotiate or pre-negotiate a 
memorandum of understanding with Taiwan authorities that will permit 
the earliest possible placement of Taiwan fellows? If those have not 
occurred, when can we expect those formal discussions to begin?

    Answer. We recognize Congressional support to facilitate shared 
objectives, including through potential legislation like the Taiwan 
Fellowship Act.
    Congressional support for our unofficial relationship with Taiwan 
has been paramount in ensuring that U.S. support for Taiwan will remain 
strong, principled, and bipartisan, in line with longstanding American 
commitments to the Taiwan Relations Act, the three Joint Communiques, 
and the Six Assurances.

    Question. Are Taiwan Authorities broadly supportive of an exchange 
program that will send fellows, from the U.S. executive branch and 
select legislative branch agencies, to Taiwan for intensive language 
training and assignment to a government ministry?

    Answer. Yes.

    Question. How will the Taiwan Fellowship Program support the State 
Department's revised contact guidelines that expand unofficial 
interactions with Taiwan authorities?

    Answer. The new guidance encourages U.S. Government officials' 
interactions with their Taiwan counterparts in a manner consistent with 
our unofficial relationship with Taiwan.
    Fellowship programs could similarly contribute to deepening our 
ties with Taiwan--a leading democracy and a critical economic and 
security partner--and we look forward to continuing to work with 
Congress as it considers legislation for such a program.

    Question. What are the benefits of Track 1.5 and Track 2 dialogues 
in building a sense of awareness around how other interested nations 
think about cross-Strait security issues?

    Answer. Such dialogues advance our unofficial relationship with 
Taiwan and, by multilateralizing support for Taiwan, contribute to 
peace and stability across the Taiwan Strait. America's commitment to 
Taiwan will remain rock-solid. We will continue to work with allies and 
partners to highlight the positive role Taiwan plays in addressing 
global challenges and encourage them to stand with Taiwan in defending 
against threats to its democratic values.

    Question. What more could the Global Cooperation and Training 
Framework (GCTF) workshops accomplish if the United States were to 
increase its financial support of such workshops? For instance, if 
additional workshops were held, could the number of issues explored be 
increased, and/or would additional like-minded countries be able to 
participate?

    Answer. The GCTF is an essential tool for building support for 
Taiwan around the world and demonstrating the value of Taiwan's 
participation on the global stage. Since its inception in 2015, the 
GCTF has featured dozens of workshops that have provided training to 
over 2,000 participants, mostly either virtually or in Taipei. Funding 
from the new $3 million directive will be essential to the success of 
this initiative going forward. Additional funding would allow the 
Department to use this structure to expand the program further, 
reaching yet more audiences with positive messages on Taiwan's 
constructive role on the world stage.

    Question. How does the Department of State currently engage with 
counterparts in the People's Republic of China on preventing 
misunderstandings and miscalculations regarding regional security 
interests, including around the Taiwan Strait?

    Answer. We have sought to minimize miscalculations on both sides of 
the Taiwan Strait, maximize our ability to broaden and deepen the 
unofficial U.S.-Taiwan relationship, and ensure the future of Taiwan is 
determined peacefully and free of PRC coercion.
    The PRC has engaged in an ongoing pattern of attempts to intimidate 
the region, including Taiwan. Beijing continues to exert military, 
diplomatic, and economic pressure against Taiwan, instead of engaging 
in meaningful cross-Strait dialogue. We will continue to support a 
peaceful resolution of cross-Strait issues, consistent with the wishes 
and best interests of the people on Taiwan.

    Question. To what degree does the Department of State, through the 
Bureau of Political-Military Affairs or any other office, consult with 
Taiwan authorities regarding which defense articles to purchase?

    Answer. In response to the growing PRC threat, we will continue 
deepening our unofficial security relationship with Taiwan to ensure it 
has sufficient capabilities to defend itself.
    The United States has notified more than $32 billion worth of arms 
to Taiwan since 2009, but arms sales alone cannot ensure Taiwan's 
ability to defend itself. Our expanding security cooperation encourages 
Taiwan to prioritize expenditures on relatively inexpensive, mobile, 
survivable, defense weapons and reserve force reform. Often referred to 
as an ``asymmetric'' defense posture, this shift in focus strengthens 
deterrence, and with it, cross-Strait stability.
    U.S. security cooperation with Taiwan is calibrated to meet the 
threat from the PRC and is consistent with the U.S. ``One China'' 
policy, which is guided by the Taiwan Relations Act, the Three 
Communiques, and the Six Assurances. As part of that cooperation, we 
encourage Taiwan to spend on defense an amount commensurate with the 
growing threat it faces.
                                 ______
                                 

             Responses of Mr. Jonathan Fritz to Questions 
                   Submitted by Senator Jeff Merkley

    Question. Your testimony rightly noted that Taiwan faces intense 
economic coercion from the Chinese Government. This is not just an 
issue for Taiwan but for any government around the world that deviates 
from the Chinese Government's party line regarding Taiwan, or even for 
companies with individual employees that do so. What specifically are 
we doing to help our partners diversify economically and boost supply 
chain resilience so they're less vulnerable to this coercion?

    Answer. We are committed to deepening trade, investment, and other 
economic ties with Taiwan, a vibrant economy that is our ninth largest 
trading partner. Trade with Taiwan advances U.S. interests and helps 
create economic opportunity and prosperity in the United States.
    As a close friend and important trading partner for a number of 
critical products, we will continue to work with Taiwan to strengthen 
supply chain resilience and diversification by addressing choke points, 
particularly in the healthcare and semiconductor sectors.

    Question. Last year, as mainland China became increasingly 
inhospitable for journalists, more than 20 journalists moved to Taiwan 
at the invitation of the Taiwanese Government. Many of them had 
published articles highlighting the Chinese Government's horrific 
abuses against Uyghurs or its handling of the coronavirus outbreak. 
What is the State Department doing to support the freedom of expression 
and defend Taiwan against any retaliation from the Chinese Government 
for hosting these journalists?

    Answer. The PRC has displayed an ongoing pattern of attempts to 
intimidate the region, including through the suppression of free 
speech. Additionally, Beijing continues to exert military, diplomatic, 
and economic pressure against Taiwan instead of engaging in meaningful 
dialogue with Taiwan.
    Taiwan is a leading democracy, a vibrant economic partner, a 
technology powerhouse, and a strong example of how an open society can 
contain COVID-19 and contribute to global health. Taiwan has also 
become a global leader in combating disinformation.
    U.S. support for Taiwan is rock-solid, and we will continue to work 
with allies and partners to highlight the positive role that Taiwan 
plays in addressing global challenges and encourage them to stand with 
Taiwan in defending against threats to its democratic values, including 
freedom of the press.

    Question. International NGOs that have long aimed to do work in 
mainland China or Hong Kong are seeing the space for civil society 
rapidly constrict and we're increasingly seeing Taiwan be a safer space 
for these NGOs to operate. What is the State Department doing to 
support NGOs operating in Taiwan or elsewhere in the Indo-Pacific 
region that work to support human rights and other important 
programming in mainland China and Hong Kong?

    Answer. Taiwan is a leading democracy, a vibrant economic partner, 
a technology powerhouse, and a strong example of how an open society 
can contain COVID-19 and contribute to global health.
    We will continue to work with allies and partners to highlight the 
positive role Taiwan plays in addressing global challenges and 
encourage them to stand with Taiwan in defending against threats to its 
democratic values.
    Despite the challenging operating environment for NGOs in China, 
DRL programs conserve and expand space for an independent local civil 
society to petition the Government on behalf of citizens' demands, 
including through online initiatives. The Department will continue to 
explore ways to support human rights programming in Hong Kong through 
Taiwan-based partners.

    Question. Taiwan citizen Lee Ming-cheh disappeared after traveling 
in China in 2017 and is serving 5 years in a mainland Chinese prison 
for alleged ``subversion of state power,'' apparently a reference to 
his work volunteering for an NGO in Taiwan. Has the State Department 
pushed for his release?

    Answer. We are aware of Lee Ming-cheh's imprisonment in the PRC 
since 2017. Lee's case has been included in the State Department's PRC 
Country Report on Human Rights Practices, including the 2020 report. 
The Biden-Harris administration has placed human rights at the center 
of its China policy and has repeatedly called on Beijing to release all 
those who have been jailed for exercising fundamental freedoms, such as 
freedom of expression and of association.

                                  <all>
</pre></body></html>
